<html>
<title> - THE PRESIDENT'S EXECUTIVE ACTIONS ON IMMI- RATION AND THEIR IMPACT ON FEDERAL AND STATE ELECTIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
            THE PRESIDENT'S EXECUTIVE ACTIONS ON IMMI- 
              RATION AND THEIR IMPACT ON FEDERAL 
              AND STATE ELECTIONS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                AND THE

                      SUBCOMMITTEE ON HEALTH CARE,
                   BENEFITS AND ADMINISTRATIVE RULES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2015

                               __________

                            Serial No. 114-5

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                                ____________
                                
                                
                          U.S. GOVERNMENT PUBLISHING OFFICE
93-973 PDF                    WASHINGTON : 2015                          
                                         
____________________________________________________________________________

For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb8afb09fbcaaacabb7bab3aff1bcb0b2f1">[email&#160;protected]</a>  

                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
     Art Arthur, Staff Director, Subcommittee on National Security
                   Sang Yi, Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                   Subcommittee on National Security

                   RON DeSANTIS Jr Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR. Tennessee            Ranking Member
JODY B. HICE, Georgia                TED LIEU, California
STEVE RUSSELL, Oklahoma, Vice Chair  ROBIN KELLY, Illinois
WILL HURD, Texas                     BRENDA L. LAWRENCE, Michigan

     Subcommittee on Health Care, Benefits and Administrative Rules

                       JIM JORDAN, Ohio, Chairman
TIM WALBERG, Michigan,               MATT CARTWRIGHT, Pennsylvania, 
SCOTT DesJARLAIS, Tennessee              Ranking Member
TREY GOWDY, South Carolina           ELEANOR HOLMES NORTON, District of 
CYNTHIA M. LUMMIS, Wyoming               Columbia
MARK MEADOWS, North Carolina         BONNIE WATSON COLEMAN, New Jersey
RON DeSANTIS, Florida                MARK DeSAULNIER, California
MICK MULVANEY, South Carolina, Vice  BRENDAN F. BOYLE, Pennsylvania
    Chair                            JIM COOPER, Tennessee
MARK WALKER, North Carolina          MICHELLE LUJAN GRISHAM, New Mexico
JODY B, HICE, Georgia                Vacancy
EARL L. ``BUDDY'' CARTER, Georgia
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 12, 2015................................     1

                               WITNESSES

The Hon. Jon Husted, Ohio Secretary of State
    Written Statement............................................    00
    Oral Statement...............................................    00
The Hon. Kris Kobach, Kansas Secetary of State
    Written Statement............................................    00
    Oral Statement...............................................    00
The Hon. Hans Von Spakovsky, Senior Legal Fellow, Edwin Meese III 
  Center for Legal and Judicial Studies, The Heritage Foundation
    Written Statement............................................    00
    Oral Statement...............................................    00
The Hon. Matthew Dunlap, Maine Secretary of State
    Written Statement............................................    00
    Oral Statement...............................................    00

                                APPENDIX

2015-02-12 Rep. Castro Statement.................................    00
2015-02-12 Rep. Fudge Statement..................................    00
2015-01-27 Letter from OH Sec. of State Jon Husted to President 
  Obama..........................................................    00
Kansas Voter Registration Form...................................    00
Ohio Voter Registration Form.....................................    00
Maine Voter Registration Form....................................    00
2008-08-20 The Myth of Widespread Non-Citizen Voting.............    00


 THE PRESIDENT'S EXECUTIVE ACTIONS ON IMMIGRATION AND THEIR IMPACT ON 
                      FEDERAL AND STATE ELECTIONS

                              ----------                              


                      Thursday, February 12, 2015,

                  House of Representatives,
 Subcommittee on National Security, joint with the 
         Subcommittee on Health Care, Benefits and 
                              Administrative Rules,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, the Honorable Ron 
DeSantis [chairman of the Subcommittee on National Security] 
presiding.
    Present from Subcommittee on National Security: 
Representatives DeSantis, Hice, Duncan, Lynch, Kelly, and Lieu.
    Present from Subcommittee on Health Care, Benefits and 
Administrative Rules: Representatives Jordan, Carter, Hice, 
Meadows, Walker, DeSantis, Walberg, Watson Coleman, Norton, and 
DeSaulnier.
    Also present: Representatives Chaffetz and Castro.
    Mr. DeSantis. The subcommittee will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    We are a government of, by, and for the American people. 
This means that the American people can, through their elected 
representatives, set whatever policies, including immigration 
policy, they see fit. The law can allow for unlimited 
immigration, limited immigration, or even zero immigration. But 
when the Government fails to enforce whatever laws happen to be 
on the books, it undermines our ability to govern ourselves.
    Likewise, when the President issued his executive edict 
granting five million work permits and Social Security numbers 
for individuals illegally present in our Country, which, by the 
way, will also make these individuals eligible for taxpayer 
finance welfare payments, he harmed the American people's 
ability to govern themselves. After all, the American people 
never voted for such a policy. Indeed, the stinging rebuke 
delivered to the President's party in November, if anything, 
provided evidence that the public rejected what the President 
had long been threatening to do.
    Under the President's policy, U.S. workers will face a 
$3,000 hiring disadvantage due to the Affordable Care Act. The 
American people had no say in enacting such a policy. Legal 
immigrants will see the hefty application fees they must pay to 
be diverted to administer the President's unconstitutional 
program, which will make these legal immigrants wait longer. 
The American people never approved such unfairness.
    Taxpayers will be on the hook to pay, as Commissioner John 
Koskinen said just yesterday, retroactive tax credit payments 
to people who were working in our Country illegally for years. 
The American taxpayer was never given a voice about this.
    So the President's policy undermines our basic ability to 
govern ourselves. And the reason we are having this hearing 
today is to showcase an even more significant, perhaps, 
ramification of what the President has done, a ramification 
that could undermine the integrity of our elections.
    Through the President's executive actions, millions of non-
citizens will be able to obtain valid Social Security numbers 
and State driver's licenses. Under Federal law, any person with 
a valid Social Security number or driver's license can register 
to vote as long as he attests to his eligibility to do so. 
Therefore, the President's executive actions dramatically 
increase the risk that non-citizens may illegally register to 
vote.
    Now, the problem of non-citizens voting already exists. 
Some experts have found that thousands of non-citizens may be 
registered to vote in some States, and perhaps as many as tens 
of thousands nationwide. A study that was released last year 
found that some non-citizens do participate in U.S. elections 
and that this participation has already had a meaningful effect 
in election outcomes, including electoral college votes and 
congressional elections.
    The President's executive actions make this problem of non-
citizen voting worse without offering any solutions or 
assistance to the States. Non-citizen voting undermines voter 
confidence and damages the integrity of Federal elections. And 
make no mistake, as an elected official, I don't want my vote 
totals diminished because of a non-citizen to vote, but I also 
don't want them to be enhanced, either. I want the actual voice 
of the American people to carry the day.
    Today we will hear from secretaries of State, officials 
tasked with the responsibility of administering elections in 
their States. They will testify how the President's executive 
actions will affect their voter registration rolls and their 
elections in their States. In fact, one of our witnesses today, 
Ohio Secretary of State Jon Husted, wrote to President Obama 
about this very issue. He requested his Administration to 
``work with us to minimize the impact on the integrity of our 
elections and to ensure only eligible voters participate in 
State and Federal elections.''
    We will also hear from an expert on voter fraud and voting 
rights laws issues to help us understand the consequences of 
the President's executive actions.
    Today's hearing is about upholding the integrity of our 
elections and ensuring that every American's vote counts.
    This is the first hearing that we have had on the 
Subcommittee on National Security, but it is a joint hearing 
with my friend, Jim Jordan. But I did want to recognize the 
ranking member on our National Security Subcommittee, Stephen 
Lynch, from the frozen tundra of Boston.
    I am happy to work with you, Stephen, although I am 
jealous. Coming from Boston, you guys four Super Bowls in the 
last 15 years, three World Series. We don't get that much love 
in Florida.
    With that, I will recognize the ranking member for 5 
minutes.
    Mr. Lynch. Well, I appreciate the congratulations and the 
condolences for the weather.
    Mr. Chairman, I want to thank you and I also want to thank 
our panel of witnesses that have come forward to help the 
committee with its work.
    While I do share President Obama's frustration with the 
inability of Congress to produce a balanced and sustainable 
immigration policy, I do have some lingering concerns about the 
precedence set by the President's executive actions on 
immigration, especially when it comes to other major issues 
that a future Congress may struggle to address. That is why I 
continue to welcome the opportunity as a direct representative 
of my constituents to consider and debate our Nation's 
immigration policy on its merits.
    Regrettably, the looming February 27 deadline to avoid a 
shutdown of the entire Department of Homeland Security 
demonstrates that some Members of Congress have chosen a more 
drastic route in response to the President's executive action. 
In particular, Republican leadership is attempting, I think, to 
condition our Nation's continued anti-terrorism, border 
enforcement, and cybersecurity funding on reversing the 
President's immigration orders. And I am not sure, but to is a 
partial Government shutdown and furloughing of approximately 
30,000 dedicated Homeland Security employees an appropriate 
response to the President's executive orders? I am not so sure 
that it is.
    Similarly, today's hearing now attempts to tie the debate 
over the President's executive action to a different and 
unrelated issue, I think, the misguided, at times, premise that 
the President's immigration orders pose a threat of voter fraud 
by non-citizens who will somehow hijack the election process 
and thereby threaten our national security.
    The rights of citizens in this Country to vote is one of 
the most basic tenets of who we are as a people and is a 
cornerstone of our democratic system that must be protected. 
However, the threat we are here to discuss today is virtually 
nonexistent if you look at the legal and electoral evidence.
    Non-citizen voter fraud is not, in fact, an active or 
present threat to our national security. None of the 
President's executive actions on immigration launch voter fraud 
into the realm of a clear and present danger or national 
security concern.
    The truth is the President's actions leave State and 
Federal voting requirements untouched. I want to repeat that. 
The President's actions leave State and Federal voting 
requirements untouched. They do not change Federal elections 
law and they leave State elections laws unaltered.
    Nevertheless, it appears that we are here today to discuss 
voter fraud, especially by non-citizens present in the Country.
    I understand some of our witnesses have expressed concerns 
to the contrary; however, it simply does not seem plausible 
that immigrants who apply for deferred action will then choose 
to ignore Federal and State laws prominently displayed on voter 
registration forms and then fraudulently attest to being a U.S. 
citizen just so they can illegally register to vote.
    When you look at the penalties that would be on an 
individual in that case, that might have received a deferred 
status and is allowed to come to the Country, that they would 
risk all of that to vote in an election where only 30 or 40 
percent of our own citizens, without penalty, choose to vote in 
those elections, it just strains the realm of credibility.
    Further, this argument presumes that these people will then 
fraudulently vote en masse in order to affect the outcomes of 
elections in swing States, even though this means that under 
the immigration law they will be deemed ineligible for 
admission to the U.S. or other immigration benefits, the very 
kinds of benefits these people are seeking in the first place.
    To fraudulently vote, non-citizens would have to ignore 
every real consequence of voter fraud, such as being deported 
if discovered. And yet some of my colleagues claim that we 
should be worried about a flood of these instances.
    I looked at the numbers, thinking that perhaps despite all 
the protections in place, this is a widespread problem. But 
studies and investigations have shown that non-citizen voter 
fraud makes up .00003 percent, the tiniest percentage of votes 
cast in this Country.
    Just to cite a few examples, only 17 instances of non-
citizen voter fraud, again, .0003 percent of the total votes 
cast were found through Ohio Secretary of State Jon Husted's 
own investigation, and he is here to testify today, of the 2012 
general elections.
    Additionally, in a State legislative hearing on the issue 
in Kansas last year, Secretary of State Kobach, again a guest 
of us this morning, could only cite 20 non-citizen registrants 
in the whole State. And out of the 20 non-citizens who were 
registered, only 5 actually voted, so they are having the same 
problem with non-citizens voting as we are with citizens 
actually coming to vote.
    So, again, I am disappointed that we are here today 
spending our valuable time and resources on unfounded concerns, 
because there are some real concerns out there. I realize that 
the President's executive orders have spurred extremely 
polarizing conversations in Congress, but as the ranking member 
of the National Security Subcommittee, I hope I can work with 
you, Mr. Chairman, to refocus on our efforts on some of the 
very real issues that we face moving forward.
    Again, I want to thank the panelists for taking the time 
from their important responsibilities to testify today, and I 
especially look forward to hearing more about what we are doing 
to protect the rights of eligible voters in our States and 
getting the 60 to 70 percent of voters who are legal citizens 
of this Country but who don't choose to vote.
    Thank you, and I yield back.
    Mr. DeSantis. The vote clock, it looks like we have about 4 
minutes left on the vote tally. I wanted to get Mr. Jordan's 
opening Statement, but I think it would be prudent just to 
recess the hearing now. When we return, Mr. Jordan will give 
his Statement, Ms. Norton will give hers, the witnesses will 
give theirs, and then the members will be able to ask some 
questions.
    So we stand in recess until the conclusion of this first 
vote series.
    [Recess.]
    Mr. DeSantis. Before I recognize my colleague, Chairman 
Jordan, I ask unanimous concern that our colleague from the 
20th District of Texas, Congressman Joaquin Castro, be allowed 
to fully participate in today's hearing. Without objection, so 
ordered.
    I now recognize Mr. Jim Jordan, chairman of the 
Subcommittee on Health Care, Benefits and Administrative Rules 
for his opening Statement.
    Mr. Jordan. I thank the chairman.
    In the previous, Mr. Lynch, the ranking member, talked 
about just 20 non-citizens on the voter rolls in Kansas, I 
think was the example. If it's one, that is a problem. And the 
issue today is there is potentially five million more potential 
problems.
    So let's remember what got us here. Twenty-two times the 
President said he couldn't do what he turned around and did. 
His actions violated the rule of law and the United States 
Constitution. You don't have to take my word for it; we have 
all kinds of law professors who say what he did was unlawful 
and a violation of the Constitution. And not just any law 
professors, all kinds of liberal law professors said that.
    But the point is also it is not just the unconstitutional 
action the President took last November; it is the unfairness 
of that action. As the chairman pointed out in his opening 
Statement, is it fair to seniors that non-citizens are going to 
get Social Security benefits? Is it fair to taxpayers that non-
citizens are going to get tax refunds? Is it fair to legal 
immigrants that non-citizens, illegals, are going to get moved 
to the front of the line and slow down the legal immigrants 
from getting the status they deserve? And is it fair that now 
there is the potential for non-citizens to participate in our 
elections?
    Those are the issues and that is why we are having this 
hearing, and that is why I want to welcome our panel. I 
particularly want to welcome Jon Husted, our Secretary of 
State, who has done an outstanding job in a State that is 
always the center of the universe every 4 years in Presidential 
elections, and just done a commendable job in his work running 
the elections in our State.
    Seven Democrats, Mr. Chairman, seven Democrats in the U.S. 
Senate, if they would just do what they said should be done 
last November. Last November, when the President did his 
violation of the rule of law, violation of the Constitution, 
executive amnesty order, seven Senate Democrats said it was 
wrong. If they would just vote to allow our bill to come up for 
debate. They can amend it, they can try to change it; that is 
how the process works. They won't even let it come up. If seven 
Democrats would just do what they said last year should be 
done, we could get this Department of Homeland Security funded 
and we could stop the unconstitutional action of the President.
    And I again want to thank our panel for being here and 
highlighting one of the real concerns that exist because of 
what the President did.
    With that, I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes Ms. Norton, Ranking Member of the 
Subcommittee on Health Care, Benefits, and Administrative 
Rules, for her opening Statement.
    Ms. Norton. I thank you, Mr. Chairman. Actually, I am here 
for the ranking member. I am a member of the full committee and 
a member of this subcommittee, but I want to express my 
condolences to the chair of this committee, Matt Cartwright, 
whose father passed and who, therefore, cannot be here today. I 
know our thoughts and prayers are with Representative 
Cartwright.
    This hearing on immigration fraud by non-citizens would be 
laughable if the subject were not so serious. Latino and other 
people of color and other immigrants will not regard it as very 
funny. They will be particularly insulted by this faux hearing 
on a non-existent issue, and they will be joined by countless 
of other Americans.
    I quote from the testimony, which I will ask to be included 
in the record, of the Ohio State NAACP. As they say in their 
testimony, ``Voter fraud has not been perpetuated by 
immigrants, nor have they been exacerbated by changes in 
national immigration policies. Rather, we have spent 106 years 
battling voting fraud, which was perpetuated primarily by 
election officials who refused to register voters because of 
what they look like or whose purges appear to be concentrated 
among certain demographics.''
    This hearing, coming as it does on the 50th anniversary of 
the Voting Rights Act, when Republicans and Democrats are about 
to go to Selma to commemorate that Act in March, comes close to 
an insult, and this is particularly so when the Majority has 
announced, indeed, announced early, that the House will not 
even have a hearing on the Voting Rights Act.
    I want to take a moment to thank Representative Jim 
Sensenbrenner, Republican of Wisconsin, and Representative John 
Lewis, Democrat of Georgia and a hero of the civil rights 
movement, for their co-sponsorship of a bill to update the 
Voting Rights Act of 1965, as instructed by the Supreme Court 
of the United States.
    It takes chutzpah, or disregard, or even disrespect, to 
hold a hearing alleging fraud by Latino and other immigrants. 
What have they received? Only the rudimentary right, the 
temporary permission to remain in this Country to work, 
unrelated entirely, of course, as the Majority knows, to the 
right to vote. The data about fraud is manifestly and 
overwhelmingly in the other direction. We should be glad that 
there is something in this Country that you don't have to have 
a hearing about.
    It took minority Americans 150 years after the Civil War to 
get the same right to vote that other Americans took for 
granted and often don't even exercise. A couple of years ago 
the Supreme Court did not nullify the Voting Rights Act, but 
they did ask this Congress to update it. Instead, we see States 
covered by the Act already passing laws designed to keep black 
people and Hispanics from voting, manifestly so, and we see 
Republicans in the rest of the Country spreading barriers, 
including Ohio, where we have a witness today and one of the 
States involved.
    The President's executive order gives immigrants the right 
to stay; immigrants who have been here for years; immigrants 
who have been working hard and whose labor we have needed. Even 
the bipartisan immigration reform bill passed by the Senate 
last Congress would have postponed the right to vote for 
immigrants for more than a decade.
    The Republicans may want to go down in history as the party 
who tried once again, 100 years later, to nullify the right to 
vote. Well, I am here today to say they shall not succeed.
    Thank you, Mr. Chairman.
    Mr. DeSantis. The gentlelady's time has expired.
    I will hold the record open for five legislative days for 
any members who would like to submit a written Statement.
    We will now recognize our first panel of witnesses. I am 
pleased to welcome the Honorable Jon Husted, Secretary of State 
for the State of Ohio; the Honorable Kris Kobach, Secretary of 
State for the State of Kansas; The Honorable Hans von 
Spakovsky, Senior Legal Fellow at the Edwin Meese Center for 
Legal and Judicial Studies at The Heritage Foundation; and the 
Honorable Matthew Dunlap, Secretary of State for the State of 
Maine. Welcome all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify, so please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Mr. DeSantis. All witnesses answered in the affirmative. 
Thank you. Please be seated.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written Statement will be 
made a part of the record.
    With that, Mr. Husted, you are up.


                       WITNESS STATEMENTS

              STATEMENT OF THE HONORABLE JON HUSTED

    Mr. Husted. Thank you, Chairman DeSantis and Ranking Member 
Lynch and the members of the subcommittee. I appreciate the 
opportunity to be here today. My name is Jon Husted. I am the 
Ohio Secretary of State, and in that capacity I serve as our 
State's chief election official. I am here to proactively 
address what I believe is an important issue facing my State 
and the Nation regarding the integrity of our elections.
    As the chief elections official in a key swing State, I 
have tried to build an election system where it is easy to vote 
and hard to cheat. We have done this by ensuring easy access to 
the voting process and by working to ensure that only eligible 
voters are on the voting rolls. I want to bring to your 
attention my concern that the President's recent immigration 
accountability executive actions will make it more difficult 
for elections officials to determine if all voters meet the 
primary standard for voting, which is U.S. citizenship.
    I am not here to debate immigration policy or the 
President's executive actions. However, I am here to 
emphatically say that we cannot follow both the Federal law and 
the executive action and ensure the integrity of the elections 
process without further assistance from Congress or from the 
Obama Administration. Let me briefly explain why.
    For an estimated four to five million non-citizens, the 
President's executive actions provide access to Social Security 
numbers and driver's licenses. These are the same documents 
that Federal law requires the States to recognize as valid 
forms of identification for voter registration. Under Federal 
law, anyone with a valid Social Security number or driver's 
license number can register to vote provided they attest they 
are a U.S. citizen. However, there is no way for us to validate 
this citizenship Statement since, under the executive actions 
previously, undocumented non-citizens will have access to the 
same documents as U.S. citizens.
    This issue becomes especially complicated in States like 
Ohio, where millions of dollars are spent on third-party voter 
registration drives where no election official would be present 
to make clear the eligibility requirements for voting. By 
signing the voter registration form and asserting citizenship 
falsely or erroneously, non-citizens could face real legal 
consequences. In Ohio, falsification is a fifth degree felony. 
This could affect their ability to remain in the United States 
and to become citizens.
    Let me interject some perspective before I go further. It 
is not my belief that four to five million non-citizens are 
going to get on the voting rolls. Nor is it my belief that 
third-party registration drive organizers are waiting to 
exploit this loophole in law. While I am committed to ensuring 
the security and the integrity of the elections in Ohio and 
throughout the Country, it is important for us to recognize 
that people can sometimes sign documents, in this case a voter 
registration form, without fully comprehending the rules and 
requirements.
    Acknowledging that I do not expect this to be a systemic or 
widespread problem, we also cannot ignore that there are real 
electoral consequences. Presidential elections get most of the 
attention, but every year there are thousands of State and 
local elections in Ohio, and in the last 15 months alone 70 
elections in our State were decided by one vote or tied. 
Seventy elections were decided by one vote or tied. These were 
mayoral elections, school and tax levies, bond issues, members 
of city councils, township trustees, and school boards.
    In light of these examples alone, we simply cannot overlook 
policies that may allow ineligible voters to cast ballots. We 
want to find the least intrusive solution to closing this 
loophole without making it unnecessarily difficult to register 
to vote.
    While opinions may vary on the best solution for this 
issue, one thing is clear: we cannot solve this Federal problem 
solely at the State level alone.
    In a letter to President Obama on January the 27th, I asked 
that his Administration provide election officials with 
realtime access to accurate searchable electronic data bases of 
non-citizens who have valid Social Security numbers. This would 
enable me and my counterparts in other States to prevent 
illegal registrations and, more importantly, reassure the 
public that steps have been taken to ensure only eligible 
voters are participating in Federal, State, and local 
elections.
    In Ohio we are what we can to prevent non-citizen 
registrations in voting. We electronically share data between 
the State's Bureau of Motor Vehicles and our county boards of 
elections which process voter registrations. This partnership 
and the data provided allow my office to conduct a review of 
Ohio's voter rolls to determine if, through the use of a 
driver's license, non-citizens were registered to vote in Ohio.
    Following the 2012 Presidential election, we found through 
this information that 291 non-citizens were registered to vote 
and 17 had actually cast ballots. Those 17 were referred for 
further investigation and prosecution, and my office sent 
letters to the other 274 to cancel their voter registrations.
    However, without Federal assistance, we cannot perform the 
same cross-match with registrations using Social Security 
numbers. As a result, these executive actions could 
significantly increase the potential pool of illegal 
registrations in Ohio and around the Country.
    It is also important to note that Federal law limits the 
ways States can maintain their voter rolls, in some cases 
prohibiting States from removing a voter from the rolls until 
they have been inactive for two consecutive Federal general 
elections. That means that when evidence suggests a person is a 
non-citizen on the rolls, we cannot remove them immediately; 
they have to remove themselves. This makes it especially 
important that we prevent an ineligible voter from getting on 
the rolls in the first place.
    As I Stated earlier, my focus as the chief elections 
official in Ohio is to make it easy to vote and hard to cheat. 
The debate over voter fraud and voter suppression already 
breeds significant hyperbole from across the political spectrum 
that erodes public confidence. In this environment, 
administering elections fairly and accurately becomes more 
difficult when the path exists where millions more non-citizens 
can register to vote in elections and elections officials have 
no way to identify these individuals.
    [Prepared Statement of Mr. Husted follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. DeSantis. Thank you, Mr. Husted. Your time has expired. 
We are going to take your Statement, it will be entered in the 
record, and you will have the ability to expand on some of that 
with our questions.
    The chair now recognizes Secretary Kobach for 5 minutes.

             STATEMENT OF THE HONORABLE KRIS KOBACH

    Mr. Kobach. Thank you, Mr. Chairman and members of the 
committee. I come to you chiefly in my capacity as Kansas's 
Secretary of State, but also in my private capacity I am the 
lead attorney representing 10 ICE agents who sued the Secretary 
of Homeland Security in the case of Crane vs. Napolitano, now 
Crane vs. Johnson. The District Court in Texas ruled that the 
President's first executive amnesty violates Federal law at 8 
U.S.C. 1225(b)(2)(A) by ordering ICE agents to refrain from 
placing into removal proceedings aliens who are required to be 
placed into removal proceedings by Federal law.
    I mention this because it is problematic for so many legal 
reasons what this executive amnesty has done. But let's talk a 
little bit about the voter fraud that we have observed 
empirically in the State of Kansas.
    At the outset, it is important to note that four States, 
Kansas, Arizona, Georgia, and Alabama, require proof of 
citizenship, documentary proof of citizenship when the person 
registers. In the other 46 States they are exceedingly 
vulnerable to what this executive amnesty has done, but even in 
those four States, because of the recent decision of the 
Election Assistance Commission, a board that is not supposed to 
have any policymaking authority, people can use the Federal 
form to circumvent our proof of citizenship requirement in 
those four States.
    I want to give you a few examples of aliens being 
registered and voting illegally in the State of Kansas. The 
most notorious case was in Seward County, in southwest Kansas, 
in 1997. There was a county issue on the ballot whether or not 
to prohibit a certain kind of hog farming operation. Across the 
border, in Guymon, Oklahoma, there was a processing plant where 
they hoped to render the hogs that were raised in Kansas.
    Shortly before election day, according to the testimony of 
the county clerk of Seward County, an envelope arrived with 
about 50 registration cards from employees at the hog 
processing plant in Oklahoma giving, in many cases, fictitious 
addresses in Kansas and asking to be registered in Kansas. She 
knew, based on her own personal knowledge of some of the 
individuals and in subsequent observations, that many, if not, 
most of these were not U.S. citizens, and also based on her 
knowledge of the composition of the plant employee base. But 
she was powerless at that time to do anything about it.
    They were registered and on election day many van load 
after many van load of employees at the Guymon plant in 
Oklahoma came north and voted in Kansas to try to steal that 
election. Fortunately, it was a very high election turnout; it 
was a very contentious issue. Fifty-one percent turned out and 
the illegal votes did not prevail and sway and overcome the 
votes of the U.S. citizens.
    I want to give you another example. In August 2010, across 
the river from where I live, I am in Kansas City, Kansas, in 
North Kansas City, Missouri, this one has been widely reported 
in the press, August primary in a district for a State 
representative seat between Rizzo and Royster. According to the 
sworn testimony of poll workers, and I have attached one of 
those to my written testimony, they observed approximately 50 
Somali nationals who were brought in by a coach and the ballot 
was translated for those individuals. They were instructed to 
vote for Mr. Rizzo and in that case Mr. Rizzo won the election 
by one vote. Successful use of aliens to steal an election.
    Again, it occurs typically in smaller elections, not so 
much in mass, nationwide elections.
    I give you another example in my testimony of 20 aliens in 
Kansas. Now, it was mentioned in some of the opening remarks 
that, well, that 20 is not very much. Well, those 20 are the 
ones where we know the exact name of the alien and we presented 
those to Federal District Court in a separate litigation. We 
know of many others, including the 50 in Seward County, but we 
don't have the exact names.
    And this illustrates a problem. Once the alien gets on the 
voter rolls, there is no magical way you can say that must be 
an alien or that must be an alien. You cannot identify them 
once they are on, except for very limited ways, such as using 
your driver's license data base to cross-match in those limited 
cases where the driver's license indicates that it is an alien 
and not a citizen. So this is an irreversible consequence. Once 
these individuals get on the voter rolls, you are not going to 
get them off except in very, very rare circumstances.
    Now, I want to talk a little bit about how the President's 
directive actually exacerbates the problem. In many States 
these aliens will get a driver's license once they have an 
employment authorization document. Some States, like Wisconsin, 
State law requires it to be issued. In all of the 10 States of 
the Ninth Circuit now, they will have to give these individuals 
driver's licenses. That comes out of a decision that the Ninth 
Circuit rendered last year. So that does change things.
    Five point eight million illegal aliens who previously did 
not have a driver's license now have the ability to get one, 
and they certainly have the ability to get a Social Security 
number, which will in turn allow them to register to vote. If 
these aliens in Kansas, or in Arizona, Alabama, Georgia, even 
our States where you have proof of citizenship, if they use the 
Federal form, they can register to vote.
    This is a problem. These consequences are irreversible. And 
we are trying to fight this in the courts, but the courts are 
taking a long time to hear these issues, even though they have, 
to date, agreed with our position that it is illegal and it is 
a problem. The consequences are not imaginary, the numbers are 
real, and we need your help in dealing with it.
    [Prepared Statement of Mr. Kobach follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. DeSantis. The gentleman's time has expired.
    The chair now recognizes Mr. von Spakovsky for 5 minutes.


          STATEMENT OF THE HONORABLE HANS VON SPAKOVSKY


    Mr. von Spakovsky. Thank you, Mr. Chairman.
    The U.S. already has a problem with non-citizens being able 
to easily register and vote with little chance of detection or 
even prosecution. There have been numerous such cases from 
Florida to Virginia to Ohio to California. These ineligible 
voters could make the difference in a close election. Let me 
just give you a few examples.
    In 2010, a Florida immigration judge issued an order in a 
removal case for a Cuban citizen who entered Miami in 2004. She 
voted in the November 2004 election. This was not detected by 
local election officials; it only came to light because she 
applied for a change in immigration status. She initially lied 
about voting, but admitted it after DHS uncovered it in a check 
of local voter registration records. If she had not tried to 
change her immigration status, she could have easily continued 
to vote illegally, without detection.
    This is not an isolated case. In 2005, a GAO report said 
that it found that 3 percent of the 30,000 individuals called 
for jury duty from voter registration rolls over a 2-year 
period in just one United States district court were not U.S. 
citizens. Now, that may not seem like many, but 3 percent of 
registered voters would have been more than enough to provide 
the winning margin in Florida in 2000.
    In just one 3-year period, from 2002 to 2005, the U.S. 
Justice Department prosecuted a dozen non-citizens for 
registering and voting in Florida, including a non-citizen who 
had been a candidate for the State legislature. These cases 
were discovered accidentally, not through any systemic review 
of election records.
    The current Justice Department is not interested in 
enforcing these laws. In 2011, when I was a member of the 
Fairfax County electoral board in Virginia, we discovered 278 
individuals who had registered to vote, despite Virginia DMV 
records showing they were not U.S. citizens; 117 of them had 
voted. We provided that information to the Justice Department; 
no action was taken to investigate or prosecute these cases.
    A voter registration card is an easily obtainable document 
that an illegal alien can use for many different purposes. 
Federal law requires employers to verify the identity of new 
employees. The Federal I-9 Form provides a list of 
documentation that can be used to establish identity, including 
a voter registration card.
    A Federal grand jury in 1984 found large numbers of aliens 
registered in Chicago. The grand jury reported that aliens 
``register to vote so they can obtain documents identifying 
them as U.S. citizens and have used their voter cards to obtain 
a myriad of benefits, from Social Security to jobs with the 
Defense Department.''
    Now, Federal immigration law requires DHS to ``respond to 
any inquiry by a Federal, State, or local government agency 
seeking to verify or ascertain the citizenship or immigration 
status of any individual. However, it is only since Florida 
successfully sued DHS, in 2012, over its refusal to verify 
citizenship data for election officials that the Government has 
finally started working with State election officials and given 
them limited access to the Systematic Alien Verification for 
Entitlements, or SAVE, data base.
    President Obama's executive action for as many as 5 million 
aliens will greatly exacerbate this problem just given the 
sheer numbers of new individuals who will be given quasi-legal 
status to be present and working in the U.S. These aliens will 
be given Social Security numbers and will obtain driver's 
licenses. Thus, it will be easier for them to register to vote 
illegally, since they will be able to meet the Help America 
Vote Act's requirement that voter registration applicants 
provide the last four digits of their Social Security number or 
their current driver's license. As a result, it will be more 
difficult for election officials to prevent or detect non-
citizens who intentionally or negligently affirm their 
eligibility to vote and use these new ID documents.
    What I would recommend is as follows:
    First of all, all Social Security numbers issued to aliens 
should have the letter N to designate non-citizen at the end of 
the number so they can easily be identified as non-citizens.
    DHS should work with the States to develop a more 
accessible process or system to verify the citizenship of 
registrants, especially those who get deferred action.
    Congress should investigate why DOJ is not prosecuting 
registration and voting by non-citizens, which are serious 
criminal offenses.
    They also should investigate whether DHS is granting 
citizenship or deferred status to aliens who have illegally 
registered or voted in past elections.
    All Federal courts should be required to notify local 
election officials when individuals are summonsed for jury duty 
from voter registration rolls are excused because they are not 
U.S. citizens.
    And a voter registration card should not be acceptable as 
ID on the Federal I-9 Form in States that have not implemented 
proof of citizenship requirements.
    Thanks.
    [Prepared Statement of Mr. von Spakovsky follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. DeSantis. The gentleman's time has expired.
    The chair now recognizes Secretary Dunlap for 5 minutes.

            STATEMENT OF THE HONORABLE MATTHEW DUNLAP

    Mr. Dunlap. Thank you, Mr. Chairman, distinguished members 
of the committee. My name is Matt Dunlap. I live in Old Town, 
Maine, and I am Maine's Secretary of State, and I thank you for 
the opportunity to sit with you today and talk a little bit 
about the aspects of voter registration and some of the 
supporting documents that we utilize to ensure the integrity of 
that process.
    I am also the chief motor vehicle official for the State of 
Maine, so we issue about a million driver's licenses, and that 
process has changed significantly over the last 10, 15 years, 
and I will speak to that quite briefly.
    I am quite pleased to tell you that in the State of Maine, 
at least, registering to vote, along with every other aspect of 
the elections process, is highly accessible to qualified 
citizens and is quite secure. In order to register to vote, you 
fill out the registration card, you have to present a photo 
identification or non-photo government official documentation, 
provide an official document that shows proof of your 
residency; and we allow for election day registration, no-
excuse absentee balloting. We had strong systems in the 
military and overseas voter empowerment act. We have a number 
of provisions in the law that open the doors to voters to come 
and participate in our process.
    In the 10 years that I have been Secretary of State, we 
have sent two cases of misuse of a ballot to the attorney 
general for prosecution. Now, I think it is important for me to 
note here, in the discussion that is centered today around the 
prospect of voter fraud, that no amount of fraud is acceptable.
    Nonetheless, it is extraordinarily rare, so what we talk 
about in the context of voter access is the importance of 
having integrity in the process, but also access. People need 
to know that that system belongs to them and that they can 
trust it. So the processes that we have in place, including a 
series of sworn Statements that people take an oath to, works 
quite well and is well policed by local elections officials.
    The consequences for violating Maine election law are 
fairly precipitous. In fact, under one of the very first 
sections of Title 21-A in the Maine revised statutes, it says a 
person is guilty of a crime if they knowingly violate a 
provision of this title for which no penalty has already been 
provided. So the message there is don't even think about it. 
And for people who are non-immigrant aliens, the consequences 
for attempting to register to vote or vote are even more 
precipitous. After they serve a prison sentence, they are 
deported and can no longer seek admission as a citizen to our 
Country.
    Now, assuming that they get that far, it is also important 
to know that the documents that they have access to are heavily 
described in law to prevent misuse of those documents, 
including the driver's license. It used to be all you had to do 
was pass the eye test, written test, and road test. But now you 
also have to provide proof of citizenship or legal presence in 
this Country. If you are eligible for a Social Security number, 
you must provide it to us. And these things have done an awful 
lot to make the credentials more secure, but also less 
convenient to obtain for our citizens.
    In terms of the work that we do on voter registration and 
driver's license issuance, it is important for me to note, in 
looking over the executive orders, that the executive orders 
really change nothing in how we do our work. The protections in 
our systems remain, they are uncompromised, and, at least in 
the State of Maine, they work pretty well.
    What I have experienced as the chief motor vehicle officer 
in the State of Maine is that, actually, a lot of the new 
requirements I just described, which run parallel to 
requirements for compliance to the Real ID Act of 2005, do 
create profound hardships for American citizens trying to 
comply, and we spend a lot of time in our exceptions process 
trying to make sure people can comply with the law.
    As an administrator, you have to treat everybody the same. 
It is easy to isolate people and call them potential terrorists 
or illegal aliens using systems that the Federal Government has 
very neatly exempted itself from participating in, but when you 
have people who are born in Canada, who are American citizens, 
trying to prove that they are Americans can be a troubling 
process for them; and we spend a lot of time trying to help 
American citizens comply with our laws.
    We have never had an experience as described by my 
colleagues, with undocumented aliens trying to throw our 
elections. My experience is they don't come here to vote and 
they don't come here to drive; they come here to find a better 
life; and the changes in immigration law which make it very 
difficult for them to pursue that is occupied entirely by the 
Federal Government. That field is yours, and yours alone. It is 
our job to try to help citizens comply with the law.
    I will try to answer any questions at the pleasure of the 
chair that come from this committee, sir.
    [Prepared Statement of Mr. Dunlap follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. DeSantis. Thank you, Secretary Dunlap.
    The chair now recognizes himself for 5 minutes.
    If you look at the President's executive order, I think, as 
has been pointed out by some of my Democratic colleagues, it 
doesn't say anything about voting; it talks about the work 
permits and the Social Security numbers, kind of the positive 
benefits that will result from this exercise of ``prosecutorial 
discretion.'' But it doesn't say anything about voting.
    So, Secretary Kobach, what would your response be when 
people say the President didn't even address voting. How could 
this possibly be an issue?
    Mr. Kobach. Thank you, Mr. Chairman. It is perhaps an 
unintended consequence of what the President has done through 
these executive actions, because you are now giving 
approximately 5.8 million people, once they get their deferred 
action, a Social Security number and they, in turn, can get 
that driver's license.
    I want to point something out. Of the aliens that we have 
specifically identified in Kansas on the voter rolls, the ones 
that were presented to the Federal District Court, 
approximately half of those aliens registered at the DMV; and 
this was before we had our proof of citizenship requirement in 
place. So when you get that driver's license, at all too many 
DMVs across the Country, the clerk who has been handing out 
licenses all day long and has done several hundred within just 
the morning alone, will oftentimes, out of rote habit, say, and 
would you like to register to vote at the end of the process.
    So aliens are often given the opportunity to register to 
vote by someone they see as a government agent. And they 
sometimes use that as an excuse when they eventually are found, 
and sometimes in cases in the previous administration, when 
people were deported for falsely asserting U.S. citizenship, 
which is a felony under Federal law, they would sometimes say, 
but I thought I could register to vote because this lady who 
works for the government asked me if I would like to register 
to vote.
    So quite often the government agent on behalf of the county 
unwittingly invites the alien to register; the alien 
unwittingly assumes that he is able to register. So in many 
cases it is going to be completely accidental, but it will 
happen. It is a guaranty that it will happen, because when they 
go to the DMV they will almost certainly be asked that 
question.
    Mr. DeSantis. Mr. Husted, you wrote a letter to the 
President after he issued these executive actions, this was 
late January 2015, and you wanted the Federal Government, I 
think, to cooperate with the State so that you could ensure the 
integrity of the elections. Have you received a response from 
the Administration about that letter?
    Mr. Husted. Mr. Chairman, I have not.
    Mr. DeSantis. And what would you like the Administration to 
do and how will that help you do your job to ensure elections 
with integrity?
    Mr. Husted. What we have asked them for are anybody who is 
receiving a Social Security number who is a non-citizen, we 
would like to have the name, the date of birth, and the last 
four digits of their Social Security number. That would allow 
us to match it against our Statewide voter data base to 
determine whether anyone who is a non-citizen is on our voter 
rolls, and then we would go through the process of trying to 
remove them.
    But that is simply what we are asking for. We believe that 
it is something that should be easily doable for the Federal 
Government. And that would include people who are here under 
present tools that allow you to be in America legally and those 
who would come under the President's new administrative action.
    Mr. DeSantis. And do you concur with that, Mr. Kobach, 
would that be helpful?
    Mr. Kobach. That would be helpful. I do think it would also 
be helpful for the Congress to clarify that the Election 
Assistance Commission is a service agency, not a policymaking 
agency, and that it should not have the authority, which it has 
illegally exercised, at least according to the district court, 
but that case is still pending, its authority to tell States, 
no, we don't think you need proof of citizenship, which is 
essentially what that agency did. In fact, I shouldn't say 
that, it wasn't the Commission, it was a temporary executive 
director of the Commission that rendered that opinion. So that 
would also be helpful.
    Mr. DeSantis. Mr. von Spakovsky, you are somebody who is 
very knowledgeable; you write a lot on voting issues. Are you 
familiar with this Richmond Chattha, and Earnest study that 
came out in 2014 about non-citizens voting in the 2008 
election?
    Mr. von Spakovsky. I am familiar with it.
    Mr. DeSantis. I think, as I read that, it was their 
contention that, and I think as people have pointed out, you 
are talking about some of the big national elections. There may 
not be enough people who are non-citizens to make a huge 
difference, but in 2008 it was these authors' contention that 
there were enough non-citizens that voted in North Carolina to 
shift those electoral votes one way, and that the 2008 Senate 
race in Minnesota, the margin of victory was lower than the 
number of non-citizens who voted. Is that an accurate 
reStatement of what they concluded?
    Mr. von Spakovsky. It is. Now, I should mention that there 
has been some debate over the validity of that, but they based 
that assessment on something called the Comprehensive 
congressional Survey, which was a survey of literally tens of 
thousands of voters in the 2008 and 2010 election. Look, you 
can debate that. The authors of the study actually posted a 
long article in The Washington Post in which they answered some 
of the claims of critics, but that shows that we do have a 
potential problem; and the actual prosecutions that have 
occurred shows it is a real problem.
    Mr. DeSantis. Secretary Dunlap, in Maine, if somebody gets 
a work permit based on the President's executive action, will 
that, ipso facto, entitle them to get a driver's license in 
Maine?
    Mr. Dunlap. Not necessarily, Mr. Chairman. There would be 
other required documents as well. We do require proof of 
residency. The Social Security number is not, we don't utilize 
that as proof of citizenship simply because you do not need to 
be an American citizen to obtain a Social Security number. It 
causes a fair amount of discomfort with people. For example, 
when we tell them we don't accept military ID cards as proof of 
citizenship for the same reason.
    So a work permit on its face would not be sufficient for us 
to issue a driver's license; there would be other required 
documents, including proof of identity, which might be a 
passport, it might be a birth certificate. Lacking those 
documents, we would probably have to go into a lengthy 
exceptions process.
    If I may give you a very brief example using an American 
citizen, last year we were confronted with the difficulty of 
somebody trying to obtain a renewal of their driver's license, 
and we could not process that request because they could not 
prove citizenship. As it happened, the individual is of 
Vietnamese birth, had been adopted by an American serviceman 
during the Vietnam War, and the hospital where he was born was 
destroyed by missile fire 2 weeks after his birth and all the 
records were lost. After a fair amount of research and working 
with some of our partners in the Federal Government, I was able 
to inquire after the constituent if they had a copy of his 
adopted father's obituary, and it was found because he had been 
listed as a survivor, that was sufficient to satisfy our 
regulations.
    So it takes a fair amount of detective work to ascertain 
proof of identity.
    Mr. DeSantis. But Maine, though, you would think it would 
be unacceptable if a work permit comes in, nothing else; no 
rubber stamped driver's license in Maine, correct?
    Mr. Dunlap. That is correct, Mr. Chairman.
    Mr. DeSantis. OK.
    I will recognize the ranking member here in a second, but I 
just would like to respond to one contention that was made 
about the fact that there are penalties for people who vote 
illegally in the Country, and that if somebody obtained work 
authorization, that could actually lead them to be removed from 
the Country and sent back to their home country.
    The problem with that is I don't think that any of those 
penalties have any bite whatsoever anymore, because we know, 
for example, by DHS's own admission, they released, in 2013 
alone, 36,000 people who were illegally in our Country and had 
been convicted of criminal offenses, in some cases very serious 
offenses like homicide and rape and aggravated assault and drug 
trafficking. And of those 36,000 in 2013, guess what we now 
know? One thousand of them have already been convicted of new 
crimes. So you literally have a situation in which these folks 
were in the criminal justice system, being convicted. 
Supposedly we say that would be a penalty that people would be 
sent back to their home country. And yet they are released into 
society by DHS and now other people have been victimized 
already, less than 2 years later.
    So I appreciate the fact that there are penalties. I just 
don't think that those penalties have very much teeth, given 
the way this system has been administered in the last couple 
years.
    My time has expired and the chair will now recognize the 
ranking member of the National Security Subcommittee, Mr. 
Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    My thanks again to the panel.
    Secretary Husted, I was trying to read your reports from 
the Ohio Statewide election survey. Is it correct that you 
actually referred 135 cases of voter fraud in 2012? Are those 
numbers right?
    Mr. Husted. Off the top of my head, I believe that sounds 
about right.
    Mr. Lynch. That was 135 cases out of 5.63 million voters in 
Ohio. I did the math and it comes out to about .00002 percent.
    Secretary Dunlap, you had a chance to review your 
predecessor's request of review of Maine's election practices 
as it was considering adopting new voter ID laws. You agreed 
with the recommendations to continue early voting and hold off 
on the proposed requirements for voter identification. 
Secretary Dunlap, how many instances of voter fraud has Maine 
uncovered, if any?
    Mr. Dunlap. We had two cases of misuse of an absentee 
ballot, for alleged double voting, Congressman.
    Mr. Lynch. That is illegal in Maine?
    Mr. Dunlap. It is, sir.
    Mr. Lynch. OK. There are some parts of my district I think 
this is going on, so I just had to question that.
    Mr. Dunlap. And I would point out that that is over the 
course of 4 years.
    Mr. Lynch. The old slogan for James Michael Curley was vote 
early, vote Curley, vote often. So I am correct in saying that 
you would generally describe voter fraud as very rare?
    Mr. Dunlap. Extremely rare.
    Mr. Lynch. Would you say the incidence of voter fraud by 
non-citizens is even smaller?
    Mr. Dunlap. I have no evidence of it in the State of Maine, 
Congressman.
    Mr. Lynch. I just want to go over this again. The 
proposition here is that these folks who have received deferred 
action status, and whether you agree with that or not, that is 
beside the point. I actually think, and I think the President 
agreed, that the best result would have had us coming up with a 
comprehensive immigration policy that would address everyone. I 
think even the Administration said this is imperfect. This was 
done, in some sense, out of frustration because we couldn't get 
comprehensive immigration reform done.
    So now we have this deferred action executive action, and 
that leaves us with this situation where certain individuals 
are going to be allowed to stay in the Country. But if they 
vote, the penalty is that they would be deported. That is the 
penalty. And I am not sure equating people who rape and maim 
and rob is the same group that you are talking about going in 
and actually voting in an election. I don't think you can 
equate those.
    But does it make sense that someone that has been given a 
chance, at least through deferred action, would go and 
jeopardize their status here in order to be .0002 percent of a 
Statewide election? What is your sense of this, Mr. Dunlap?
    Mr. Dunlap. It doesn't make sense to me, and in many ways, 
Congressman, the executive order brings this around full circle 
to an earlier time in motor vehicle administration when many 
motor vehicle administrators really wanted to provide 
credentials to people who came here for work purposes, legally 
or illegally, for the simple premise that, if they are in your 
system, you know who they are and you know where they are. And 
for the purposes of highway safety, we all want to make sure 
that everyone who is operating on the roads that are shared by 
our families are in fact qualified to operate those vehicles.
    The reality is if you make it difficult for them to obtain 
those credentials, they are going to drive anyway, they are 
just not going to have a license.
    What we find is that if people have the opportunity to 
comply with the law, they will. If it is impossible for them to 
comply with the law, then they are already at variance with it. 
So it only makes logical sense that if people have the 
opportunity to succeed in America, that they will seize upon 
that opportunity and not throw it into jeopardy. At least that 
is what history shows us.
    Mr. Lynch. Well, thank you, Mr. Secretary. I have 8 seconds 
left and I am just about done here.
    All I can say is I am honored to be the ranking Democrat on 
a National Security Subcommittee, and I am sure, during this 
next couple of years, we are going to have a real opportunity 
to deal with national security issues. This, however, does not 
strike me as being one.
    Thank you. I yield back.
    Mr. DeSantis. The chair now recognizes Mr. Jordan, chairman 
of the Benefits Subcommittee, for 5 minutes.
    Mr. Jordan. I thank the chairman.
    Secretary Husted, you had some numbers in your testimony. I 
want to go through them. The first number is 291, 291 people 
who were non-citizens who were on the registration rolls in 
Ohio, is that right?
    Mr. Husted. That is correct.
    Mr. Jordan. How did you derive that number?
    Mr. Husted. When you apply for a driver's license in Ohio 
as a non-citizen, you have to indicate that at the time you 
receive your license. We went back, searched that data, then 
went and looked at the Statewide voter roll after the election, 
found the matches of 291 people, and then waited an entire 
year, because this is self-reported data, and then waited an 
entire year to see if these individuals also self-reported 
themselves as non-citizens a year later. So it is their 
information; they are the ones that provided it.
    Mr. Jordan. And a year and a half way to get to that 
number.
    Mr. Husted. That is the only way we could get to it.
    Mr. Jordan. In your professional judgment, is that a low 
estimate or could the number be significantly higher?
    Mr. Husted. It could be higher. That is just what we can 
find out at this point.
    Mr. Jordan. OK. Then another number you had in your 
testimony was 70 elections. These are the number of elections 
decided by one vote?
    Mr. Husted. That is correct.
    Mr. Jordan. And that was in what timeframe?
    Mr. Husted. That is in the past 15 months.
    Mr. Jordan. In the past 15 months. So that .00002 percent 
that the gentleman from Massachusetts was talking about, that 
is a small number, but that small number could have changed 70 
elections in Ohio in the last 15 months, is that right?
    Mr. Husted. Yes. We have had 70 elections that were decided 
by one vote or a tie.
    Mr. Jordan. So you have 291 on the voter registration 
rolls; that is a low estimate. You had 70 elections in the last 
15 months decided by one vote. And now the President just said 
five million more non-citizens can get access to the very 
documents that allow people to register to vote. Is that 
accurate?
    Mr. Husted. That is correct.
    Mr. Jordan. So the problem is potentially much bigger, 
right?
    Mr. Husted. Correct.
    Mr. Jordan. Now, in your testimony you also talked about 
voter registration drives as maybe the biggest concern that you 
have as the head election official in your State. Can you walk 
me through that?
    Mr. Husted. Yes. In Ohio, as you are well aware, there are 
a lot of third-party voter registration drives. Their goal is 
to register as many people as they can. A lot of times those 
individuals don't take the care that somebody at the DMV might 
be at explaining the rules for doing this, and a lot of times 
folks who--of that 291, some of them didn't even know that they 
weren't allowed to be registered to vote.
    Mr. Jordan. So the point is that compounds everything I 
just went through, potentially.
    Mr. Husted. Correct.
    Mr. Jordan. Right. So we have 70 elections in Ohio decided 
by one vote in the last 15 months. Now, think about it. If some 
of that was done by non-citizens illegally participating in the 
election process, what does that say to citizens?
    What does that say to a senior citizen, when this non-
citizen is already getting Social Security benefits? What does 
that say to a taxpayer when this non-citizen is already getting 
tax refunds? What does it say to legal immigrants who came here 
and did it the right way and are citizens, what does it say to 
them that now the position they took may have been defeated 
because a non-citizen potentially in 70 different races in the 
last 15 months decided the outcome of an election? That is what 
we are concerned about, right?
    Mr. Husted. It says we are letting them down and we need to 
fix it.
    Mr. Jordan. Exactly. And that is why you are here and that 
is why you wrote the letter to the President of the United 
States, right?
    Mr. Husted. That is correct.
    Mr. Jordan. Now, in November, when the President decided he 
was going to go down this path and create this mess we just 
walked through, did he contact you, John Husted, Secretary of 
State for the State of Ohio?
    Mr. Husted. No.
    Mr. Jordan. Now, think about this. Every political pundit 
in the world knows Ohio is always a central State in every 
Presidential election; important State, seventh largest State, 
a lot of people there. And the President of the United States 
didn't contact the guy who has been running elections in the 
State that is always the center of the university in a 
Presidential race, didn't contact you and ask, hey, is there 
going to be concerns or problems if we do this?
    Mr. Husted. He did not, no.
    Mr. Jordan. Now, you are in town, you and Mr. Kobach and 
Mr. Dunlap are in town with the Secretary of State Association, 
right? You have a conference and you are listening to speakers 
and all the things you guys do. Do you know, Mr. Husted, if the 
President contacted the Secretary of States Association before 
he issued this order in November of last year?
    Mr. Husted. I am not aware of any contact.
    Mr. Jordan. Mr. Kobach?
    Mr. Kobach. I am not aware.
    Mr. Jordan. Mr. Dunlap?
    Mr. Dunlap. The President does not require my permission to 
issue an executive order.
    Mr. Jordan. I didn't ask that. I said did he contact you?
    Mr. Dunlap. He did not, sir.
    Mr. Jordan. So the head of election officials, the 
association that represents and conducts elections, the 
President didn't even talk to you guys when he did this, and 
now is potentially allowing five million people to get access 
to the documents so they can register to vote, and he didn't 
even have the decency to call you guys?
    Mr. Husted. We did not get contacted, and I would say why I 
wrote the letter is that I want to comply with the Federal law.
    Mr. Jordan. Exactly, which brings me to my last question, 
Mr. Chairman.
    We have Secretary Husted, who is offering a solution. In 
fact, he wrote the Ohio delegation and he wrote the White House 
and said, hey, here is all we have. I am not even going to 
comment. I think what he did is unconstitutional; most law 
scholars do. Even liberal ones think what he did is 
unconstitutional.
    But you are not even commenting on that, you are just 
saying we want to fix it so at least our elections can only be 
decided by people who are actually citizens. You have offered a 
solution. Have you heard from the White House about your 
solution, Mr. Husted?
    Mr. Husted. We have not. And it is particularly important 
when you are the Secretary of State from Ohio because we will 
get sued for not complying with the Federal law.
    Mr. Jordan. Exactly. Exactly. This is unbelievable. The 
White House didn't talk to the people who run elections before 
they did the order, and now we have a secretary of State in one 
of the most important States in every election, every 
Presidential election, offers a solution and the White House 
doesn't even have the decency. They weren't contacted on the 
front-end, but they should at least have the decency, when they 
offer a solution to fix the problem the White House created, 
the decency to talk to them and say, all right, let's work on 
it.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes Ms. Norton for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. As I hear what passes 
for evidence, I can only say it is no wonder that the last two 
Congresses have gone down in history as the least productive in 
American history.
    I want to say for the record that the Social Security card 
that these immigrants get says valid for work only with DHS 
authority. These are immigrants who, for years, have been 
living in fear because they are undocumented. They live in such 
fear that they don't even report crime. Now we are made to 
believe that they will go to the polls and throw elections, 
even the much vaunted election in Ohio.
    Mr. Dunlap, let me thank you for apparently being able to 
secure the vote without denying the vote.
    In Kansas, Mr. Kobach, you have implemented so-called proof 
of citizen voting requirements. I do want to note that it 
delayed voting registration applications for 22,000 people, at 
least as of last four. That is 16 percent. Most of those were 
probably just as full citizens as you and I are.
    But let me turn to Ohio while I still have some time. Mr. 
Husted, you have been particularly determined. In 2012, you 
initially denied the expansion of early voting hours in urban 
Democratic-leading counties covering Cleveland, Columbus, 
Akron, and Toledo. But at the same time, the record will show, 
there were early voting hours in heavily Republican counties 
like Warren and Butler. They were expanded to include nights 
and weekends.
    The record shows there were such loud complaints about this 
patent, unadulterated unfairness that you limited early voting 
across the State to weekdays only. Is that not true?
    Mr. Husted. Ranking Member Norton, that is not true. What 
is true in Ohio is that we have nearly a month to vote, 24 
hours----
    Ms. Norton. Wait a minute. I didn't ask you what happens in 
Ohio. Did you not deny the expansion of early voting?
    Mr. Husted. I did not.
    Ms. Norton. In Cleveland, Columbus, Akron, and Toledo?
    Mr. Husted. And the answer to your question is I did not.
    Ms. Norton. What did you do?
    Mr. Husted. I set uniform hours for the State of Ohio so 
that every voter would have equal access. The local----
    Ms. Norton. And you are denying that at the same time----
    Mr. Husted. I am denying.
    Ms. Norton [continuing]. The early voting hours were set in 
Republican-leading districts. You are denying that on the face 
of the record.
    Mr. Husted. I had nothing to do with it. Those were local 
election officials that did that.
    Ms. Norton. So you had nothing to do with that. Well, then, 
Mr. Husted, while my time is up, sir, before my time is up, 
isn't it true that these voting restrictions were overturned by 
a Federal district court and that you did not immediately 
comply with the full restoration of those voting rights?
    Mr. Husted. That is not true, ma'am. We have complied with 
the Federal court ruling. We were also granted a stay.
    Ms. Norton. I said you did not immediately comply.
    Mr. Husted. We immediately complied.
    Ms. Norton. Well, you appealed to the Supreme Court.
    Mr. Husted. Ma'am, that is how the justice system works.
    Ms. Norton. And they refused to hear your case.
    Mr. Husted. And they did hear my case.
    Ms. Norton. And what did they decide?
    Mr. Husted. They gave us a stay, and it is still in Federal 
court.
    Ms. Norton. So you believe you have every chance of 
prevailing in this case, a case with the facts I have just 
enumerated, with the differences?
    Mr. Husted. Ma'am, we vote for twice as long as the 
District of Columbia does, and everybody votes by the same 
rules.
    Ms. Norton. I doubt that you vote for longer than the 
District of Columbia. I doubt that very seriously and I 
challenge you to send to this committee evidence of that. But 
if you do, let me make sure that I inform elected officials so 
that they would at least be as good as Ohio is.
    Mr. Husted, a recent study by two of your prominent State 
universities, Case Western Reserve and Cleveland State 
University, found that in 2008 African-American voters made up 
56.4 percent of all weekend voters in Cayuga County, even 
though adult African-Americans made up only 28 percent of the 
population there. Can you understand, therefore, why there has 
been such an outcry in Ohio when two prominent research 
universities in your State found that cutting early voting on 
Sundays and weekend evenings could disproportionately affect 
African-Americans? I mean, shouldn't that concern you in a 
State like Ohio?
    Mr. DeSantis. Her time has expired, but I will let you 
answer that, then I will recognize Mr. Walberg.
    Mr. Husted. Ma'am, I understand that, and I would invite 
you to Ohio to see what we do. I enforce the Ohio law, I don't 
make the Ohio law. But when granted the opportunity to 
establish hours, I have granted 2 weekends of early voting on 
the Sunday and Saturday before the elections; and that is how 
the Presidential election will be run in Ohio under a directive 
that I have issued so long as the courts allow so.
    Mr. DeSantis. The chair now recognizes Mr. Walberg for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and I thank the panel 
for being here. And though this cuts into some of my 
questioning time, I think it is important that I express real 
concern, and even offense, at some of the Statements that are 
being made. I hope it comes from emotion, and not from the 
heart of hearts, that any party is attempting to quash and take 
away the rights that are given to all citizens of this Country, 
all legal citizens of this Country, regardless of color, race, 
creed, origin, gender. That is not happening with any of my 
support, and I know my colleagues as well.
    I also say that that is offensive to those legal and 
documented aliens who serve in my communities well in providing 
services on farms, in hospitality, in construction, in IT, and 
all sorts of things that are extremely important to us, and yet 
they are doing it legally.
    I say it as a proud father-in-law of a Rwandan who is here 
on an appropriate legal visa in the United States right now 
that expires in April, and he, with my daughter, will be going 
back to their home in Uganda. I say it as well based upon the 
fact that this hearing is important not so much even for the 
issues of voting, but the issue of constitutionality and the 
strength of our Constitution, a Constitution that a legal 
constitutional scholar, our President, Stated 22 times he did 
not have the power to do this executive order, and then he did 
it. This is a constitutional crisis that we are dealing with 
and this is one of the issues that has resulted from that 
constitutional crisis.
    So I make that Statement. I believe it is important for us 
to make sure that is on the record as well, that we want to see 
this Country move forward legally, and all citizens, all legals 
that are here are treated justly and fairly.
    Mr. von Spakovsky, how big do you think this problem is?
    Mr. von Spakovsky. Well, it is really hard for us to know 
because there is no systematic verification of citizenship 
status across the Country; we can only get a rough idea of it.
    Mr. Walberg. There is no way to quantify it?
    Mr. von Spakovsky. No. But that is why, for example, I 
cited the GAO report, where they found that 3 percent of people 
called for Federal jury duty, and those come from voter 
registration lists, so 3 percent of 30,000 were excused from 
jury duty under oath because they were not U.S. citizens. That 
gives you a flavor of it.
    I would remind this committee that in 1996 this committee 
issued a report investigating an election contest in 
California, one congressional race won by less than 1,000 
votes, and in that one congressional race, after comparing INS 
records with voting records, this committee found that there 
were 624 non-citizens, clear evidence, who had voted illegally 
in that congressional race, and another 192 where there was 
circumstantial evidence that they were not U.S. citizens. Now, 
the race wasn't overturned, but this is just one investigation 
20 years ago that found hundreds of non-citizens who had voted 
in a congressional race in California.
    Mr. Walberg. And it is likely to increase in its problem 
exponentially?
    Mr. von Spakovsky. I believe so because now individuals who 
are here illegally are going to be legally obtaining Social 
Security numbers and driver's licenses, which are key documents 
in order to get registered to vote, according to the law that 
Congress itself passed in 2007, the Help America Vote Act.
    Mr. Walberg. In your opinion, how do we prevent or stop 
non-citizen voter registration or voter fraud? Does Congress 
need to change the law?
    Mr. von Spakovsky. Yes. I think what Secretary Husted has 
said about getting access to the DHS data base on everyone 
given deferred action, for example, so they have their name, 
the last four digits of a Social Security number, and a birth 
date so they can start verifying that. That is the first step. 
The other thing you should do is require all Federal courts to 
notify State election officials when someone is called for jury 
duty and they are excused because they are not a U.S. citizen. 
They are not doing that right now. That is just a basic step.
    Mr. Walberg. So are there existing laws that could be 
enforced that aren't right now that would assist in this 
problem?
    Mr. von Spakovsky. Yes. I would tell you I spoke to a 
former election official just this week, and he said that while 
DHS has finally started complying with the Federal law that 
requires them to verify citizenship information when they get 
inquiries from State election officials, that they put up all 
kinds of burdensome red tape to make it difficult. The current 
system is slow and cumbersome, and he highly recommended that 
DHS work with State election officials to set up a better, 
quicker system.
    Mr. Walberg. Thank you.
    Mr. DeSantis. The gentleman's time has expired.
    The chair notes the presence of the committee chairman, Mr. 
Chaffetz. Would you like to be recognized?
    The chair now recognizes the gentleman from California for 
5 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    Mr. Husted, for the record, I believe that Congresswoman 
Norton was talking about a 2012 case and you were giving 
answers to a 2014 case. That is sort of my understanding of her 
interchange.
    But my questions are for Mr. Dunlap. I have heard a lot of 
hypotheticals today. I am sure anything can happen. It is 
certainly possible that that .002 percent change could 1 day 
affect the State of Ohio, that could 1 day affect a 
Presidential election. Anything is possible. But I just note 
that in the last election two-thirds of Americans did not vote. 
That number dwarfs by orders of magnitude .002 percent, and my 
view is that in our republic, in our democracy, we are better 
served by having as many eligible voters vote as possible. 
Everyone's time is limited and constrained. I think that our 
democracy is better if the 50 secretaries of State focused 
their time on increasing voter turnout for eligible voters, 
that makes our Country stronger, than focusing on .002 percent 
hypotheticals.
    So let's talk about what the actual laws are right now in 
America.
    Mr. Dunlap, can you just walk through again the 
requirements that an individual must meet to be eligible to 
vote in your State of Maine?
    Mr. Dunlap. In order to be eligible to vote, sir, they have 
to be a domiciled resident of the State, they must demonstrate 
citizenship, they have to give proof of identity, and 
affirmative proof of where they live.
    Mr. Lieu. And what are the consequences if someone, under 
Maine law, engages in voter fraud?
    Mr. Dunlap. The penalties range from elevated misdemeanors 
to Class C felonies, which are punishable by up to 5 years in 
prison and $5,000 in fine, and then being remitted to Federal 
authorities for further penalties and expulsion from the 
Country, sir.
    Mr. Lieu. And has the President's executive order changed 
the law on voter fraud in any way whatsoever?
    Mr. Dunlap. No, sir. We still maintain the same due 
diligence that we did before.
    Mr. Lieu. Has the President's executive order conferred any 
new right to vote for non-citizens in Maine?
    Mr. Dunlap. It has not affected the right to vote for 
anyone other than naturalized or born United States citizens, 
sir.
    Mr. Lieu. And it is still illegal for non-citizens to 
affirm that they are citizens in order to vote in Maine.
    Mr. Dunlap. That is correct, sir.
    Mr. Lieu. As a representative of California, I would like 
to, at this time, read an excerpt from a Statement prepared for 
this hearing by California Common Cause, a national non-
partisan advocacy organization founded in 1970 to enable 
citizens to make their voices heard in a political process. 
California Common Cause writes: ``Ensuring that every eligible 
citizen has the opportunity to cast a vote free from 
discrimination and obstacles is fundamental to a democracy that 
aims for and professes representation of all. As Stated below, 
we see no threat to election processes at either the State or 
Federal level resulting from the President's orders.''
    I ask unanimous consent to enter this Statement into the 
congressional record, Mr. Chairman.
    Mr. DeSantis. Without objection, it will be so entered.
    Mr. Lieu. And with that I yield back the balance of my 
time.
    Mr. DeSantis. The gentleman yields back the balance of his 
time.
    The chair now recognizes the gentleman from Georgia, Mr. 
Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    I think it has been clearly established here so far that I 
don't think there is anyone in the room that would not 
acknowledge that there at least have been instances, as you 
have brought up, in the thousands, perhaps, in fact, certainly 
over the course of time. We have examples from North Carolina 
and Minnesota extensively so. We all know that there have been 
problems of voter fraud. We also know that Federal law 
authorizes the Department of Justice to prosecute non-citizens 
for both registering and voting. This is a criminal offense 
and, as has just been mentioned, can result in removal from the 
Country.
    My first question to each of you, do you know, to the best 
of your knowledge, of any example where the Department of 
Justice has in fact brought charges against anyone or deported 
them?
    Mr. Husted. I do not, sir.
    Mr. Kobach. I know of examples in the prior Administration. 
I cannot think of anyone of an alien voting in this 
Administration where charges have been brought against that 
alien for voting.
    Mr. von Spakovsky. I have to agree with Secretary Kobach. I 
know of instances, during the prior Administration, where 
individuals were not only prosecuted by the Justice Department, 
but this was considered in their citizenship applications. But 
as I pointed out, I am not aware of that being done in this 
Administration, and I know from personal knowledge that of the 
almost 300 individuals that Fairfax County sent over to the 
Justice Department notifying them that these were not U.S. 
citizens, that they had registered and that almost half of them 
had voted. That fell into a black hole at the Justice 
Department.
    They did nothing to investigate or prosecute those cases, 
and I don't believe that any of those non-citizens had any of 
the penalties brought up against them that could have allowed 
their removal from the Country. In fact, I cite in my written 
testimony a letter published by a county election official in 
Tennessee that she got from a non-citizen. He had gotten this 
from DHS and it was a letter--this person was applying for 
citizenship and this was a letter telling him that he needed to 
be sure that he was taken off the local voter registration 
list.
    So they clearly weren't going to punish him or in any way 
delay his citizenship; they just told them, well, to go forward 
with your citizenship application, you need to be sure you are 
off the list.
    Mr. Hice. OK, thank you.
    Mr. Dunlap?
    Mr. Dunlap. I do not know of any such action in my State, 
sir, but I also Stated earlier that we have never had a 
complaint of such action, either, so it makes sense.
    Mr. Hice. OK. All right, so what we have here, evidently, 
is that at least within this Administration we have no examples 
that we have any knowledge of where the law in this regard has 
been upheld by the Justice Department. So we have, evidently, a 
Justice Department unwilling to abide by the law, which, of 
course, is what we are seeing across the board even in so many 
instances right now; and if the rule of law is not going to be 
upheld, it is of very little value at all to any of us.
    Now, it has also been brought up that the motor voter law, 
as it is known, where individuals are given the opportunity to 
register to vote when they get their driver's license, is 
posing a significant problem, as you have mentioned; and from 
what we hear from multiple DMVs across the Country, they don't 
believe it is their responsibility to find out whether or not 
these individuals are citizens of the United States or not.
    Would you agree with that?
    Mr. Kobach. I would say that those States that are fully 
complying with the Real ID Act of 2005, they are least trying 
to ascertain whether or not the person is a citizen who is a 
U.S. citizen or is an alien here lawfully present. But it is at 
the later stage of the process where they ask that final 
question, and would you like to register to vote. Even in fully 
compliant Real ID States they are not going back and checking, 
hey, wait a minute, I have to check your citizenship.
    Mr. Hice. But at some point someone has to be responsible; 
it is either the State or the Federal Government. Real quickly, 
almost a yes or no answer, is the DHS trustworthy? Do States 
believe that they can trust the DHS to give this information?
    Mr. Kobach. We have asked DHS for a lot of information and 
it has not been forthcoming from DHS. And the one program they 
do make available, SAVE, which was created in the 1990's for 
State governments to use, they make that virtually impossible 
to use; they say, well, we won't let you check those names 
unless you can give us an independent number associated with 
that alien. Virtually impossible for the State to do.
    Mr. Hice. We have an enormous problem here, obviously, and 
it is only getting bigger. The President's actions to grant de 
facto amnesty to five million is just exasperating an already 
existing problem, and I and Congress should look for solutions 
to prevent non-citizens from diluting the ballots of citizens 
in this Country.
    Thank you.
    Mr. DeSantis. The gentleman's time has expired.
    The chair now recognizes Ms. Kelly for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair. I would first like to ask 
for unanimous consent to enter a Statement into the record by 
our colleague, Congresswoman Marcia L. Fudge, who represents 
the 11th District of Ohio.
    Mr. DeSantis. Without objection.
    Ms. Kelly. Thank you.
    Ms. Kelly. I would like to focus a bit on the occurrence 
specifically of non-citizen voter fraud.
    Secretary Husted, your office released a report on voter 
fraud in May 2013, including a review by 88 county boards of 
election in Ohio. According to that report, over five million 
total votes were cast in Ohio in that election. According to a 
letter you sent to the Ohio Attorney General, Mike DeWine, on 
December 18, 2013, how many instances of non-citizen voter 
fraud did you refer for the investigation?
    Mr. Husted. We referred 291 cases on the non-citizen aspect 
of the issues. Those are two separate reports, so that you 
know; there was the voter fraud report, which did not include 
our non-citizen research because we had to wait for a calendar 
year after the election to double-check our work on that to 
make sure we didn't include anybody that shouldn't have been on 
the list. But on the non-citizen piece, there were 291 non-
citizens that were referred to the attorney general's office.
    Ms. Kelly. And what happened with those cases?
    Mr. Husted. Those were investigated. Some of them were 
referred to local prosecutors. Seventeen of the people in those 
individual cases had voted; some of them have been prosecuted; 
there were plea agreements in other cases. But what we did with 
those who didn't vote, we simply sent them a letter and asked 
them to remove themselves from the voter rolls, because we do 
not have the authority under the law to remove them, so we 
asked them to remove themselves.
    And then after waiting a few months, if they didn't comply, 
we sent them a second letter. And if they didn't respond to the 
second letter, then we turned them over to the attorney 
general's office for further action. Some of them removed 
themselves; some of them have, in some cases they didn't know 
they were on the voter rolls; in some cases they didn't know 
that they weren't allowed to be on the voter rolls; and in some 
cases we have never been able to track the individual down.
    Ms. Kelly. So you wouldn't say people maliciously were 
trying to do something wrong if they didn't even know or some 
of the things you just said.
    Mr. Husted. I think it is across the board. Some people 
were on there that knew they shouldn't be; some people were on 
there that didn't know that they shouldn't be.
    Ms. Kelly. OK. So 17 cases of non-citizen voter fraud, so 
that, as I think one of my colleagues said, represents 0.0003 
percent of the over five million total voters in Ohio.
    I would like to say I believe it is a misallocation of 
time, money, and committee resources to combat a voting problem 
that is practically non-existent. This is especially true when 
many States are taking steps to make voting more difficult for 
eligible Americans by curtailing early voting hours and other 
barriers. We need to combat that problem. And I believe this is 
especially important to make this point now, as this is the 
fiftieth anniversary of the Voting Rights Act, and it is 
utterly ridiculous in 2015 that American citizens are still 
fighting for the right to vote.
    I yield back.
    Mr. DeSantis. The gentlelady yields back.
    The chair now recognizes Mr. Carter for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Appreciate you for 
being here very much.
    Full disclosure: I am from Georgia, and in Georgia we are 
only one of four States that has a voter ID law. In further 
full disclosure, I am proud of the fact that I was a member of 
the Georgia State legislature when we passed that bill, and I 
voted in favor of it and even co-sponsored it. So full 
disclosure there.
    I want to ask each of you, if you will, do you think it is 
one of our greatest rights here in America, the right to vote? 
Do you value that, as I do, as one of your greatest rights as a 
citizen?
    Mr. Husted. I certainly do.
    Mr. Carter. Thank you.
    Mr. Kobach. Absolutely. And I would add that every time an 
alien votes, even if it doesn't succeed in stealing the 
election, it effectively cancels out the vote of a U.S. citizen 
and effectively disenfranchises that U.S. citizen.
    Mr. von Spakovsky. And I have to agree wholeheartedly with 
that.
    Mr. Dunlap. I would certainly say, sir, that the right to 
vote is the preeminent of all of our rights.
    Mr. Carter. Thank you all.
    Let me ask you. At least three of the four of you are 
secretaries of State. Do you consider it your responsibility in 
the office that you hold to make certain that only American 
citizens vote in our elections?
    Mr. Husted. Yes, sir, I do, and I am here to try to find a 
solution to that problem, because as the Ohio Secretary of 
State, we cannot comply with the Federal law if we don't have 
access to the name, the date of birth, and the last four digits 
of the Social Security number. And we will see litigation where 
the courts will settle this issue rather than the Congress or 
the Administration, and I ask of you to give us what we need so 
that we can comply with the Federal law.
    Mr. Carter. Thank you.
    Mr. Kobach. Absolutely it is our responsibility do that, 
and I would note, partially in response to what Mr. Lynch said 
in his opening remarks, the fact that you attest to your U.S. 
citizenship on a voter registration card is not enough; it is 
clearly not enough from the many hundreds of cases, 
collectively, who have shown where people have signed the voter 
registration card, have checked the box, yes, I am a U.S. 
citizen. In many cases they probably didn't even know what they 
were checking because we subsequently learned that many of 
these aliens on our rolls don't read English or know English 
particularly well. So they may have been manipulated into 
signing that card.
    But the bottom line is simply checking a box is not enough. 
That is why we in Kansas, and likewise in Georgia, moved to a 
proof of citizenship system. More States need to move in that 
direction and we need the Federal Government, especially the 
EAC, to get out of our way so that we can ensure that our voter 
rolls are clean.
    Mr. Carter. Thank you. Thank you.
    Mr. Dunlap?
    Mr. Dunlap. I do believe that it is part of our prime 
directive to make sure that our systems do have integrity, but 
also that people can access them as well, and that is a very 
delicate balance that we maintain through our State legislature 
as we craft election law.
    Mr. Carter. Mr. Husted, you have made it clear that Ohio 
takes this very seriously and you have a number of checks and 
balances to make sure that it is a truly American citizen who 
gets to vote.
    Mr. Kobach, I am very aware you have the same laws as the 
State of Georgia with voter ID.
    Mr. Dunlap, I am just a little bit concerned. I still don't 
understand the checks and balances that exist in Maine to make 
sure, the system there, that only Americans are voting.
    Mr. Dunlap. Well, if you are speaking in reference to a 
voter ID statute, that was proposed the last legislature and it 
was converted under the Republican administration that preceded 
me into a resolve that created a study committee that examined 
that issue. In the State of Maine, that study committee 
actually recommended that we not pursue photo ID to access a 
ballot because of the hardship that would cause on legal 
citizens from being able to access their ballots to participate 
in their election.
    Mr. Carter. OK, so you don't have voter ID, but what proof 
do you require, then?
    Mr. Dunlap. Well, in order to register to vote, as I 
mentioned before, you do have to present photo ID, a government 
issued identification, and also an official document that shows 
that you live in the precinct in which you are registering. In 
order to obtain that driver's license, if you will, under Maine 
law, and I didn't get an opportunity to answer Mr. Hice when he 
asked the same question, but we are required under Maine law to 
determine citizenship. So if you follow that line, then we do 
have that check and balance, along with the subscribed oath 
that you take when you register to vote that everything you 
State in there is, in fact, true.
    Mr. Carter. I understand. Is a Social Security card enough?
    Mr. Dunlap. No, sir.
    Mr. Carter. So it takes more than that.
    Mr. Dunlap. Absolutely.
    Mr. Carter. Much has been made here today about the fact of 
this .002 percent, and I get that, I understand that. But I 
think all of you agree that even that should be zero, not .002 
percent.
    Mr. Dunlap, one last question. How many elections in the 
past few years have been decided in the State of Maine by .002 
percent or less?
    Mr. Dunlap. When people say, sir, that they don't think 
their vote counts, I invite them to come to a recount where we 
see many races decided by one vote.
    Mr. Carter. So that .002 percent could have made a 
difference.
    Mr. Dunlap. Our races can be small, so it may exist outside 
that statistical figure, sir.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. DeSantis. The gentleman's time has expired.
    The chair asks unanimous consent that Mr. Husted's letter 
be entered into the record. Without objection, so ordered.
    Mr. DeSantis. The chair now recognizes Mrs. Watson Coleman 
for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. First of all, 
I would like to ask unanimous consent to enter certain forms 
into the record, and those forms are the voter registration 
forms for Kansas, Ohio, and Maine. I think each of these 
documents clearly asks whether the submitter is a U.S. citizen. 
Kansas, for example, has a clear Statement saying, Warning: If 
you submit a false voter registration application, you may be 
convicted and sentenced to up to 17 months in prison. So I ask 
unanimous consent to enter this form into the record because it 
seems clear to me that non-citizens who receive a driver's 
license are fully apprised of the consequences of lying about 
citizenship on their applications.
    Mr. DeSantis. Without objection.
    Mrs. Watson Coleman. Thank you very much.
    Mrs. Watson Coleman. Mr. Kobach, I have a question for you. 
You mentioned something relating to a hog election in Kansas, 
and that you had problems with people from, I believe it was, 
Oklahoma? Were those people from Oklahoma non-citizens of 
Kansas or non-citizens of the United States of America?
    Mr. Kobach. They were non-citizens of the United States of 
America based on the county clerk of Seward County. Most of the 
employees at the hog processing plant in Oklahoma were non-
citizens, both legal and illegal, it is believed. But some of 
the Seward County personnel recognized some of those applicants 
as being non-citizens based on personal knowledge and then 
based on the general perspective----
    Mrs. Watson Coleman. Non-citizens of what?
    Mr. Kobach. Of the United States.
    Mrs. Watson Coleman. OK. How do they know that?
    Mr. Kobach. As I just mentioned, there was some personal 
knowledge involving specific individuals, and then the county 
clerk also made a general assessment based on the fact that 
most of the employees at the plant were non-citizens.
    Mrs. Watson Coleman. Thank you.
    Mr. Dunlap, how does the Maine mail-in registration form 
clarify voting eligibility requirements?
    Mr. Dunlap. Well, under State and Federal law, we do allow 
people to mail in their voter registrations. They do have to 
include a photocopy of their ID, as well as copies of those 
official documents I mentioned earlier; and they have to 
provide us with either the last four digits of their Social 
Security number or their driver's license as part of that mail-
in registration.
    Mrs. Watson Coleman. So, to your knowledge, has there been 
a significant reporting of individuals not understanding this, 
these requirements?
    Mr. Dunlap. I have not gotten any reports of people not 
understanding the requirements. The work that is done, 
especially under the National Voter Registration Act, in our 
motor vehicle offices around the State of Maine, that work does 
include ascertaining, as I mentioned, citizenship and 
explaining the meaning of the documentation to those that are 
applying. And when people do mail in their voter registration 
forms, if they are incomplete, they are rejected and referred 
back to the registrars of voters, who then followup with the 
voter to make sure the documentation is complete.
    Mrs. Watson Coleman. So when third parties go out and do 
voter registration, how are you sure that they are getting 
people who are eligible to register to vote to actually 
register? Are they asked to accompany those forms with the 
information that you would ask of an individual?
    Mr. Dunlap. We handle those one card at a time, so each one 
is treated separately and each one is examined for every field 
to make sure the fields are complete and that the documentation 
that is required is, in fact, provided.
    Mrs. Watson Coleman. Do you think that the laws on the 
books as of right now are really adequate to ensure that there 
is an understanding and a compliance for voting?
    Mr. Dunlap. I do. I do. And we have had, as I say, a number 
of hotly contested recounts over this last election cycle, and 
as those recounts were concluded and as the election itself was 
certified and tabulated, I have had no question about the 
integrity of our election systems in the State of Maine.
    Mrs. Watson Coleman. Has there been anything identified in 
the Presidential executive actions that are loosely related to 
this issue, if at all, and I certainly don't think that they 
are, that somehow enhances the opportunity of voter fraud by 
non-citizens?
    Mr. Dunlap. It has not impacted our ability to enforce 
Maine election law.
    Mrs. Watson Coleman. Does your office have a sense that our 
participation of eligible voters voting or not voting has 
become sort of diminished in our elections and that we should 
be doing something to encourage those who can vote to vote?
    Mr. Dunlap. Not in the State of Maine. This last election 
cycle, I am proud to say that Maine led the Nation in turnout, 
with 60.9 percent of voter-age eligible voters utilizing the 
processes that we provide them.
    Mrs. Watson Coleman. Well, I certainly wish we could take 
that as a standard and try to apply it and exceed it.
    I certainly think that what we have been experiencing these 
last elections would suggest very strongly that we need to be 
concentrating on efforts to get eligible people to vote, and 
that the few instances and the expectations or the projections 
of a possibility of a problem does not necessitate the kinds of 
resources and application of time, resource, or money that we 
are devoting to this today. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. DeSantis. The gentlelady's time has expired.
    The chair now recognizes the gentleman from North Carolina, 
Mr. Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman. I would like to 
commend you guys for the duration here and hanging in there. 
But I think even more I am impressed with these young ladies 
who have sit on this front row the entire time. I don't know 
who their parents are, but maybe we need to have you back on a 
committee on parenting or something. So, yes, excellent job 
there. Well behaved.
    I want to start off by addressing something absolutely 
crucial to the understanding and the purpose of this hearing. I 
have heard a few comments today saying this is frivolous, why 
are we here, but let's be clear. The exact purpose that we are 
here today, and that is because of President Obama's executive 
overreach. Whatever the President could not pass through 
Congress in his first 6 years is now getting force-fed to all 
Americans. He has created chaos at the Federal, National, and 
at the State level by expanding the executive powers at whim. 
That is one of the reasons that you guys are here today.
    Strong Statement, but I believe his disrespect of the 
presidency, that is, the President, the legislative process, 
and the States as independent sovereign bodies. Most of all, he 
has cheated Americans out of their constitutional prerogative 
to be heard by their elected representatives.
    I do have a question. It seems like today that we have 
tried to make a case in some instances that only a little bit 
of illegal activity is OK. I don't understand that, so my 
question is what percentage of voter fraud is OK. I know that 
is rhetorical, but I would love to hear just a quick response 
on how you feel about that for the record.
    Mr. Husted. Mr. Walker, no amount of voter fraud is OK, 
particularly for a Secretary of State who is in charge of 
overseeing elections. And I have heard the topic come up about 
voter turnout. I think voter turnouts improve when people 
believe that their elections are run with integrity. And this 
is part of helping to build confidence in the entire system of 
elections, and that is, in part, along with the legal 
responsibilities I have, as to why I am here today.
    Mr. Walker. Well, thanks for taking pride in that, Mr. 
Husted.
    Mr. Kobach?
    Mr. Kobach. I agree with Secretary Husted. Absolutely no 
voter fraud is OK. And even if the instances are relatively 
small in a particular election, like we saw in the 2010 
election in North Kansas City, Missouri, it can steal an 
election. There are so many close elections. So it is a red 
herring to keep reciting a very small percentage. If we didn't 
have that close elections in America, then that would be a 
legitimate argument. But we do.
    Mr. Walker. Thank you.
    Mr. von Spakovsky. Congressman, the whole reason the U.S. 
Supreme Court upheld the voter ID as constitutional in 2008 was 
because it said not only does this Country have a history of 
voter fraud, but could make the difference in close elections. 
It is a completely invalid comparison to take the number of 
prosecutions in cases and compare it to, for example, the total 
number of votes cast in a particular State because of that very 
issue, it can make a difference in close elections.
    I keep going back to Fairfax County, the 117 individuals we 
found who were not U.S. citizens who had voted in past 
elections. Virginia has millions of registered voters. Yet, in 
the past few years we have had attorney generals in other cases 
decided by less than 500 votes in one case, less than 1,000 
votes in another case. And that was only one county where we 
found over 100 non-citizens who had voted in prior elections.
    The key thing is any kind of fraud like that cheats 
American citizens from the value of their vote.
    Mr. Walker. Thank you.
    Mr. Dunlap?
    Mr. Dunlap. No violation of law can be excused or 
dismissed. In the context of this discussion here today about 
the impact of the President's executive order and our ability 
to conduct free, fair, and transparent elections, and some of 
the solutions that have been offered, I am a little bit 
bewildered by it all simply because, as I have Stated 
repeatedly here today, the executive order has not impacted my 
ability to enforce Maine election law or Maine motor vehicle 
law.
    I would point out that I flew here in a plane; I did not 
build an airport and start an airline. So the real solution to 
the problems that are perceived here is immigration reform, not 
trying to build new data bases and find ways to screen out 
ineligible voters.
    Mr. Walker. Thank you, Mr. Dunlap.
    One last question. I have about 45 seconds left, so just a 
quick answer. What percentage of voter fraud goes undetected? 
Is there any way to have a number on that? How would we know 
that?
    Mr. Dunlap. I can say with great assertion that our 503 
municipal clerks and registrars do an extraordinary job making 
sure that this system is executed to its fullest and that every 
T is crossed and I is dotted.
    Mr. von Spakovsky. And I have to say that, as the 7th 
Circuit pointed out when it upheld Indiana's voter ID law, you 
can't detect that kind of fraud when you don't have the tools 
in place to detect it.
    Mr. Walker. Thank you. That is my point.
    Yes, go ahead, Mr. Kobach.
    Mr. Kobach. Prior to our adoption of laws with proof of 
citizenship and photo ID, the vast majority of voter fraud went 
undetected. And one other point. The numbers we have given you, 
291 cases in Ohio, I mentioned in my testimony approximately 
200 cases in Arizona, 20 cases in Kansas over a 3-year period; 
those are just driver's license data base checks. That is only 
the small subset of aliens who happened to have applied for a 
driver's license. The rest of the alien population you cannot 
detect on the voter roll using that method.
    Mr. Walker. So the point being this: the numbers that we 
have heard thrown out, .02 percent here, really is a number 
that shouldn't even be taken into consideration because of what 
we can't detect that is voter fraud.
    Mr. Husted, I will let you close, then I will yield back.
    Mr. Husted. I would just reiterate that I can't answer the 
question without access to the last four digits of the Social 
Security number, the name, and the date of birth, because there 
is no way for us to make that determination without access to 
that information.
    Mr. DeSantis. The gentleman's time has expired.
    The chair now recognizes the gentleman from Tennessee, Mr. 
Duncan, for 5 minutes.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    I had other meetings, and I apologize if I get into 
something that you have already covered, but I read in our 
briefing paper that it says non-citizen voting is a criminal 
offense under 18 U.S. Code Section 611, and a removable offense 
in INA Section 212, various subsets. But then it is very seldom 
prosecuted, seemingly, because there are not high-profile 
people involved in it, and too many prosecutors don't seem to 
want to prosecute things unless they are going to get some good 
publicity about it.
    Our briefing paper also says the California Secretary of 
State reported in 1998 that 2,000 to 3,000 of the individuals 
summoned for jury duty in Orange County each month claimed an 
exemption from jury service because they were not U.S. 
citizens. But these individuals were summoned from the voter 
registration list. It seems to me that if that kind of thing is 
happening in that one county, this is a much bigger problem 
than perhaps some people have said here today.
    Mr. von Spakovsky, I know you wrote a book about this, I 
think, at one point. Now, in one of our briefing things it says 
that voter fraud could be dramatically reduced if Federal, 
State, and local governments simply share the information they 
already obtain regarding citizenship status. Do you agree with 
that? And what would be the No. 1 thing that you think we could 
do that is not being done now, or should be done that is not 
being done now?
    Mr. von Spakovsky. Require DHS to put in an easily checked 
system that allows the Secretaries of State, such as the 
gentlemen here today, to run data comparisons between their 
State voter registration lists and DHS records, similar to 
what, frankly, the State of Kansas is already now doing with a 
number of other States, where they are doing data comparisons 
to find people who have registered in multiple States.
    Mr. Duncan. Well, it just seems a shame to me that this is 
a violation of Federal criminal law, and a lot of people just 
slough it off as if it is really not anything too bad, so we 
are not going to do anything about it.
    Thank you very much, Mr. Chairman.
    Mr. DeSantis. The gentleman yields back.
    We are happy to welcome Mr. Castro from Texas, who is not 
on the committee, but asked to be waived on, and I will now 
recognize you for 5 minutes.
    Mr. Castro. Thank you, Chairman DeSantis, and thank you for 
the courtesy of allowing me to be here. This is an issue that I 
take great interest in. I served in the Texas legislature when 
the legislature passed the Texas voter ID law. It was around 
the same time that redistricting plan was passed in Texas, 
which a Federal court found intentionally discriminated against 
minorities in Texas, African-Americans and Hispanics. So I 
apologize, like all of us who have been running around, I may 
have a few questions over which you have already tread.
    But let me ask each of you very quickly what was the 
participation rate in each of your States for the 2014 mid-term 
elections? Just a number real quick, or ballpark.
    Mr. Husted. Thirty-nine percent.
    Mr. Kobach. Our participation rate was 51 percent. And I 
would note that that increased from 50 percent in our previous 
non-Presidential election----
    Mr. Castro. OK. No, no, that is fine.
    Mr. Kobach. And we put photo ID in place is my point. And 
the number went up.
    Mr. Castro. Sure. I don't mean to make an argument of it; I 
just need a number.
    Mr. Kobach. Just thought you might want to know.
    Mr. Castro. Fifty-one percent?
    Sir, what was yours?
    Mr. Dunlap. It was 60.9 percent of voter age eligible.
    Mr. Castro. OK, so somewhere between 39 and 60? And which 
of your States has voter ID laws in effect now?
    Mr. Kobach. In Kansas we have photo ID and proof of 
citizenship.
    Mr. Castro. OK.
    Mr. Husted. In Ohio we use the Federal standard.
    Mr. Castro. So did you pass a State voter ID law or not?
    Mr. Husted. We have an ID law, but not a strict photo ID 
law, so you could use bank Statements and another type of 
document.
    Mr. Castro. Certainly, Mr. Dunlap, would you agree that 
when there is photo ID passed or voter ID passed there are some 
legitimate voters who are not going to be able to vote because 
they don't have the ID with them?
    Mr. Dunlap. That is precisely why the Maine legislature 
rejected that very piece of legislation and why the study 
committee said that it would be a disenfranchising force. We do 
require photo ID to register to vote, but not to access an 
actual ballot at the polls.
    Mr. Castro. And do you know of any estimates about the 
percentage of people that might be denied their legitimate 
right to vote because of these laws?
    Mr. Dunlap. It would probably be fairly significant. It 
could run 5 to 10 percent.
    Mr. Castro. OK. So let me ask any of you this: Do you think 
that the argument here is that the President's executive action 
may cause undocumented folks to vote? Do you think these folks 
are more patriotic than, in Kansas, 61 percent of your Kansans? 
I guess what I mean to say is you really think that these folks 
are so patriotic and so wanting to go vote that they want so 
much to go vote more than 61 percent of the Kansans who didn't 
want to go vote?
    Mr. Kobach. Let me tell you a story about a specific 
individual.
    Mr. Castro. No, please answer my question. If you are going 
to, yes or no?
    Mr. Kobach. It is directly in answer to your question. 
These individuals may vote for some of the same reasons that 
you are suggesting. A woman in Wichita, an alien, voted----
    Mr. Castro. Do you think--I need to reclaim my time.
    Mr. Kobach. She voted multiple times. She was a green card 
holder with an application for U.S. citizenship----
    Mr. Castro. Mr. Chairman, I asked a direct question for 
which the witness won't give me a direct answer.
    Mr. Kobach. I am trying to answer your question. The answer 
is she wanted her U.S. citizenship application and she said, 
when asked, she voted as a green card holder because she 
thought it would increase the changes of her becoming and 
accepted as a U.S. citizenship. So it was an error.
    Mr. Castro. But, Mr. Kobach, you believe that----
    Mr. Kobach. So many are motivated to vote.
    Mr. Castro [continuing]. There are so many undocumented 
folks there who just want to vote so much in Kansas that this 
is going to be a problem?
    Mr. Kobach. Some, like her, are in error, and they think 
voting will help them. Others are manipulated, like those in 
Seward County, Kansas, in my written testimony, but evidently 
you haven't looked at it.
    Mr. Castro. OK, so you feel there are so more patriotic 
than 61 percent of your Kansas out there, that they are just 
dying to go vote. OK.
    Mr. Kobach. I doubt that the participation rate would 
exceed 61 percent.
    Mr. Castro. Now, let me ask you this.
    Mr. Dunlap, do you think that there are more people who are 
going to be legitimately disenfranchised, Americans, legitimate 
voters who have the right to vote, disenfranchised by laws 
passed in Kansas and other places, or are there going to be 
more undocumented folks who actually turn out and vote? Which 
number do you think would be higher?
    Mr. Dunlap. Those denied access to the process, sir.
    Mr. Castro. Yet, these were laws that were very graciously 
passed in places like Kansas and Tennessee, which the 
Government Accounting Office has said cost the vote for a lot 
of people. I know you have disputed that report, but the GAO 
has said that it was solid and credible.
    Mr. Kobach. The GAO report was before the 2014 election. We 
now have empirical evidence that the voter participation went 
up after we put photo ID in.
    Mr. Castro. So you think that putting roadblocks in front 
of people is OK, right, even though legitimate voters, 
everybody agrees that are going to be some legitimate voters 
who aren't going to be able to vote. Even you agree with that, 
right?
    Mr. Kobach. No, I don't agree with that.
    Mr. Castro. Not a single legitimate voter is going----
    Mr. Kobach. Not a single one. We have been unable to find a 
single person----
    Mr. Castro. Wow. That is a remarkable answer, that you 
won't even admit a single person is not going to be able to 
vote.
    Mr. Kobach. Every person can get a free non-photo ID----
    Mr. Castro. So there are going to be more legitimate 
people, right, who can vote, there are going to be more 
legitimate people that can vote because of the laws that you 
all passed versus these undocumented folks that you are worried 
about today.
    Mr. Kobach. Not a single U.S. citizen or other legitimate 
voter, I assume you are talking about someone who didn't bring 
their driver's license with them.
    Mr. Castro. No.
    Mr. Kobach. Not a single legitimate voter has been denied 
the right to vote in Kansas, and we have many cases----
    Mr. Castro. Mr. Kobach, you are being unreasonable.
    Mr. DeSantis. The gentleman's time has expired.
    Mr. Castro. Thank you, Chairman.
    Mr. Jordan. Mr. Chairman, could I just do one quick 
question for Mr. Kobach?
    Mr. DeSantis. The chair recognizes the gentleman.
    Mr. Jordan. I just want to be clear. It was tough for us to 
hear exactly what you said. So in the 2010 non-Presidential 
election you had a percentage of Kansas that showed up and 
voted. Between 2010 and 2014 you implemented a photo ID 
requirement. And if I heard you, I think you said in 2014 the 
percent of Kansas who showed up to vote went up, is that 
accurate?
    Mr. Kobach. That is accurate. The percentage went up and 
the raw number of voters who voted in 2014 set an all-time 
State record, and that, again, was after we implemented a photo 
ID requirement.
    Mr. Jordan. I yield back, Mr. Chairman.
    Mr. DeSantis. The ranking member, the chair recognizes.
    Mr. Lynch. Thank you, Mr. Chairman. I have a report here 
entitled, Truth in Immigration: The Myth of Widespread Non-
Citizen Voting, by the Maldef Legal Defense and Education Fund, 
that I would ask to have submitted to the record.
    Mr. DeSantis. Without objection, it will be so entered.
    Mr. DeSantis. Well, let me thank the witnesses for your 
time and providing your input. I think part of the issue that 
we are seeing emanating from what the President did is we are 
really in unchartered law. I mean, this is kind of a law-free 
zone. The work permits that are issued are not contemplated by 
the statute; the different benefits have never been passed by 
Congress. So this is going to trickle down to how that new 
status that has been created by executive fiat is going to 
interact with State laws, and I think it is going to be 
confusing and I think that the President was wrong to do what 
he did, and I don't think that that is how the system is 
supposed to operate.
    But I do appreciate all of you for coming here today.
    This hearing is now adjourned.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
